IN THE SUPREME COURT OF THE UNITED STATES
_______________
No. 18A1135
FNU TANZIN, SPECIAL AGENT, FBI, ET AL., APPLICANTS
v.
MUHAMMED TANVIR, ET AL.
_______________
APPLICATION FOR A FURTHER EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
_______________
Pursuant to Rules 13.5 and 30.2 of the Rules of this Court,
the

Solicitor

General

respectfully

requests

a

further

30-day

extension of time, to and including July 14, 2019, within which to
file a petition for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Second Circuit in this
case.

The opinion of the court of appeals (App., infra, A1-A57)

is reported at 915 F.3d 898.

The judgment of the court of appeals

was entered on May 2, 2018.

A petition for rehearing was denied

on February 14, 2019 (App., infra, A58-A60).

On May 8, 2019,

Justice Ginsburg extended the time within which to file a petition
for a writ of certiorari to and including June 14, 2019.

The

2
jurisdiction

of

this

Court

would

be

invoked

under

28

U.S.C.

1254(1).
1.

The court of appeals held in this case that the Religious

Freedom Restoration Act (RFRA), 42 U.S.C. 2000bb et seq., provides
a cause of action for money damages against federal officers acting
in their individual capacities.

RFRA provides that the government

“shall not substantially burden a person’s exercise of religion”
unless

the

government

“demonstrates

that

application

of

the

burden” furthers a “compelling governmental interest” and “is the
least restrictive means” of doing so.
(b).

42 U.S.C. 2000bb-1(a) and

RFRA further provides that any “person whose religious

exercise has been burdened in violation of” RFRA “may assert that
violation as a claim or defense in a judicial proceeding and obtain
appropriate relief against a government.”
RFRA

defines

“government”

to

include

42 U.S.C. 2000bb-1(c).
a

“branch,

department,

agency, instrumentality, and official (or other person acting
under color of law) of the United States.”

42 U.S.C. 2000bb-2(1).

Here, respondents are Muslim men who reside in New York or
Connecticut.

Each was born abroad, immigrated to the United

States, and is now lawfully present as a U.S. citizen or permanent
resident.

They brought this suit against a number of federal

officers in their individual capacities, alleging that that they
were placed and maintained on the national “No Fly List” in

3
retaliation for their refusal to serve as informants for the
Federal Bureau of Investigation (FBI).

Respondents contended,

among other things, that this violated their rights under RFRA and
that they were entitled to money damages against the individual
federal officers personally.
The district court dismissed the RFRA claim, holding that
RFRA does not permit the recovery of money damages against federal
officers sued in their individual capacities. The court of appeals
reversed, holding that “appropriate relief” includes money damages
in a RFRA suit against federal officials in their individual
capacities.

In reaching that result, the court distinguished

Sossamon v. Texas, 563 U.S. 277 (2011), in which this Court held
that

similar

language

in

the

Religious

Land

Use

and

Institutionalized Persons Act of 2000, 42 U.S.C. 2000cc et seq.,
does not provide for money damages against state officers sued in
their individual capacities.
The government filed a petition for rehearing en banc, which
was denied over the dissent of three judges.

Judge Jacobs filed

an opinion dissenting from the denial of rehearing en banc, which
was joined by Judges Cabranes and Sullivan.

Judge Cabranes also

filed an opinion dissenting from the denial of rehearing en banc,
which was joined by Judges Jacobs and Sullivan.

Chief Judge

4
Katzmann and Judge Pooler filed an opinion concurring in the denial
of en banc review.
2.

The Solicitor General has authorized the government to

file a petition for a writ of certiorari in this case.

The

additional time sought in this application is needed to permit the
preparation and printing of the petition, and because the attorneys
with principal responsibility for drafting the petition have been
heavily engaged with the press of other matters before this Court.
NOEL J. FRANCISCO.
Solicitor General
Counsel of Record
JUNE 2019

APPENDIX
Court of appeals opinion.......................................A1
Court of appeals order denying rehearing en banc..............A58
Opinion of Chief Judge Katzmann and Judge Pooler concurring in the
denial of rehearing en banc ..................................A61
Opinion of Judge Jacobs dissenting from the denial of rehearing en
banc .........................................................A66
Opinion of Judge Cabranes dissenting from the denial of rehearing
en banc ......................................................A77

16‐1176
Tanvir v. Tanzin
UNITED STATES COURT OF APPEALS
1

FOR THE SECOND CIRCUIT
____________________

2
3
4

August Term, 2016

5
6
7

(Argued: March 1, 2017

Decided: May 2, 2018
Amended: June 25, 2018)

8
9

Docket No. 16‐1176
____________________

10
11
12
13
14

MUHAMMAD TANVIR, JAMEEL ALGIBHAH,
NAVEED SHINWARI,

15

Plaintiffs‐Appellants,

16
17
18

v.

19
20
21
22
23
24
25
26
27
28
29
30
31

FNU TANZIN, Special Agent, FBI; SANYA GARCIA, Special
Agent, FBI; JOHN LNU, Special Agent, FBI; FRANCISCO
ARTUSA, Special Agent, FBI; JOHN C. HARLEY III, Special
Agent, FBI; STEVEN LNU, Special Agent, FBI; MICHAEL
LNU, Special Agent, FBI; GREGG GROSSOEHMIG, Special
Agent, FBI; WEYSAN DUN, Special Agent in Charge, FBI;
JAMES C. LANGENBERG, Assistant Special Agent in Charge,
FBI; JOHN DOE #1, Special Agent, FBI; JOHN DOE #2, Special
Agent, FBI; JOHN DOE #3, Special Agent, FBI; JOHN DOE #4,
Special Agent, FBI; JOHN DOE #5, Special Agent, FBI; JOHN
DOE #6, Special Agent, FBI,

Defendants‐Appellees.1
____________________

1
2
3

Before: KATZMANN, Chief Judge, POOLER and LYNCH, Circuit Judges.

4

Plaintiffs‐Appellants Muhammad Tanvir, Jameel Algibah, and Naveed

5

Shinwari (“Plaintiffs”) appeal from a February 17, 2016 final judgment of the

6

United States District Court for the Southern District of New York (Abrams, J.),

7

dismissing their complaint against senior federal law enforcement officials and

8

25 named and unnamed federal law enforcement officers. The complaint alleged,

9

inter alia, that in retaliation for Plaintiffs’ refusal to serve as informants, federal

10

officers improperly placed or retained Plaintiffs’ names on the “No Fly List,” in

11

violation of Plaintiffs’ rights under the First Amendment and the Religious

12

Freedom Restoration Act, 42 U.S.C. § 2000bb et seq. (“RFRA”).
The complaint sought (1) injunctive and declaratory relief against all

13
14

defendants in their official capacities for various constitutional and statutory

15

violations, and (2) compensatory and punitive damages from federal law

16

enforcement officers in their individual capacities for violations of their rights

17

under the First Amendment and RFRA. After the parties agreed to stay the

The Clerk of Court is respectfully directed to amend the official caption in this
case to conform with the caption above.
2

1

1

official capacity claims, the district court dismissed Plaintiffs’ individual capacity

2

claims. As relevant here, the district court held that RFRA does not permit the

3

recovery of money damages against federal officers sued in their individual

4

capacities. Plaintiffs appeal that RFRA determination only.

5

Because we disagree with the district court, and hold that RFRA permits a

6

plaintiff to recover money damages against federal officers sued in their

7

individual capacities for violations of RFRA’s substantive protections, we reverse

8

the district court’s judgment and remand for further proceedings.

9
10

REVERSED and REMANDED.
____________________

11

RAMZI KASSEM, CLEAR Project, Main Street Legal

12

Services, Inc., City University of New York School of

13

Law (Naz Ahmad, on the brief), Long Island City, NY, for

14

Plaintiffs‐Appellants.

15

Jennifer R. Cowan, Erol Gulay, Sandy Tomasik,

16

Debevoise & Plimpton LLP, New York, NY, for

17

Plaintiffs‐Appellants.

18

Shayana D. Kadidal, Baher Azmy, Center for

19

Constitutional Rights, New York, NY, for Plaintiffs‐

20

Appellants.

3

1

ELLEN BLAIN, Assistant United States Attorney (Sarah

2

S. Normand, Benjamin H. Torrance, Assistant United

3

States Attorneys, on the brief), for Joon H. Kim, Acting

4

United States Attorney for the Southern District of New

5

York, New York, NY, for Defendants‐Appellees.

6

POOLER, Circuit Judge:

7

Plaintiffs‐Appellants Muhammad Tanvir, Jameel Algibah, and Naveed

8

Shinwari (“Plaintiffs”) appeal from a February 17, 2016 final judgment of the

9

United States District Court for the Southern District of New York (Abrams, J.),

10

dismissing their complaint against senior federal law enforcement officials and

11

25 named and unnamed federal law enforcement officers. As relevant here, the

12

complaint alleged that, in retaliation for Plaintiffs’ refusal to serve as informants,

13

federal officers improperly placed or retained Plaintiffs’ names on the “No Fly

14

List,” in violation of Plaintiffs’ rights under the First Amendment and the

15

Religious Freedom Restoration Act, 42 U.S.C. § 2000bb et seq. (“RFRA”).

16

The complaint sought (1) injunctive and declaratory relief against all

17

defendants in their official capacities for various constitutional and statutory

18

violations, and (2) compensatory and punitive damages from federal law

19

enforcement officers in their individual capacities for violations of their rights

4

1

under the First Amendment and RFRA. As relevant here, the district court held

2

that RFRA does not permit the recovery of money damages against federal

3

officers sued in their individual capacities. Plaintiffs appeal that RFRA

4

determination only.
Because we disagree with the district court, and hold that RFRA permits a

5
6

plaintiff to recover money damages against federal officers sued in their

7

individual capacities for violations of RFRA’s substantive protections, we reverse

8

the district court’s judgment and remand for further proceedings.
BACKGROUND

9
10
11

On appeal from the district court’s dismissal of Plaintiffs’ complaint, we

12

“accept[] as true factual allegations in the complaint, and draw[] all reasonable

13

inferences in the favor of the plaintiffs.” Town of Babylon v. Fed. Hous. Fin. Agency,

14

699 F.3d 221, 227 (2d Cir. 2012).

15

I.

Relevant Factual and Procedural Background

16
17

Plaintiffs are Muslim men who reside in New York or Connecticut. Each

18

was born abroad, immigrated to the United States early in his life, and is now

19

lawfully present here as either a U.S. citizen or as a permanent resident. Each has

20

family remaining overseas.
5

1

Plaintiffs assert that they were each approached by federal agents and

2

asked to serve as informants for the FBI. Specifically, Plaintiffs were asked to

3

gather information on members of Muslim communities and report that

4

information to the FBI.2 In some instances, the FBI’s request was accompanied

5

with severe pressure, including threats of deportation or arrest; in others, the

6

request was accompanied by promises of financial and other assistance.

7

Regardless, Plaintiffs rebuffed those repeated requests, at least in part based on

8

their sincerely‐held religious beliefs. In response to these refusals, the federal

9

agents maintained Plaintiffs on the national “No Fly List,” despite the fact that

10

Plaintiffs “do[] not pose, ha[ve] never posed, and ha[ve] never been accused of

11

posing, a threat to aviation safety.” App’x at 74, 84, 92 ¶¶ 68, 118, 145.
According to the complaint, Defendants “forced Plaintiffs into an

12
13

impermissible choice between, on the one hand, obeying their sincerely held

14

religious beliefs and being subjected to the punishment of placement or retention
Plaintiffs assert that they were caught up in a broader web of federal law
enforcement mistreatment of American Muslims. They allege that, following the
tragic attacks of September 11, 2001, “the FBI has engaged in widespread
targeting of American Muslim communities for surveillance and intelligence‐
gathering.” App’x at 66 ¶ 36. These law enforcement practices included “the
aggressive recruitment and deployment of informants . . . in American Muslim
communities, organizations, and houses of worship.” Id.
6
2

1

on the No Fly List, or, on the other hand, violating their sincerely held religious

2

beliefs in order to avoid being placed on the No Fly List or to secure removal

3

from the No Fly List.” App’x at 109 ¶ 210. Plaintiffs allege that this dilemma

4

placed a substantial burden on their exercise of religion.
Additionally, Defendants’ actions caused Plaintiffs to suffer emotional

5
6

distress, reputational harm, and economic loss. As a result of Defendants’ actions

7

placing and retaining Plaintiffs on the “No Fly List,” Plaintiffs were prohibited

8

from flying for several years. Such prohibition prevented Plaintiffs from visiting

9

family members overseas, caused Plaintiffs to lose money they had paid for

10

plane tickets, and hampered Plaintiffs’ ability to travel for work.3

11

A.

The “No Fly List”

12

In an effort to ensure aircraft security, Congress directed the

13

Transportation Security Administration (“TSA”) to establish procedures for

14

notifying appropriate officials of the identity of individuals “known to pose, or

One Plaintiff, for example, had to quit a job as a long‐haul trucker because that
job required him to fly home after completing his route, while another declined
temporary employment in Florida due to these travel restrictions. These same
restrictions barred another Plaintiff from traveling to Pakistan to visit his ailing
mother, and rendered yet another Plaintiff unable to see his wife or daughter in
Yemen for many years.
7
3

1

suspected of posing, a risk of air piracy or terrorism or a threat to airline or

2

passenger safety.” 49 U.S.C. § 114(h)(2). TSA was further instructed to “utilize all

3

appropriate records in the consolidated and integrated terrorist watchlist

4

maintained by the Federal Government” to perform a passenger prescreening

5

function. 49 U.S.C. § 44903(j)(2)(C)(ii).

6

The “No Fly List” is one such terrorist watchlist and is part of a broader

7

database developed and maintained by the Terrorist Screening Center (“TSC”),

8

which is administered by the FBI. The TSC’s database contains information about

9

individuals who are known or reasonably suspected of being involved in

10

terrorist activity. The TSC shares the names of individuals on the “No Fly List”

11

with federal and state law enforcement agencies, the TSA, airline representatives,

12

and cooperating foreign governments.

13

Plaintiffs allege that federal law enforcement and intelligence agencies

14

may “nominate” an individual for inclusion in the TSC’s database, including the

15

“No Fly List,” if there is “reasonable suspicion” that the person is a “known or

16

suspected terrorist.” App’x at 68 ¶ 41. In order for a nominated individual to be

17

added to the “No Fly List,” there must be additional “derogatory information”

18

showing that the individual “pose[s] a threat of committing a terrorist act with
8

1

respect to an aircraft.” App’x at 68 ¶ 42. Any person placed on the “No Fly List”

2

is barred from boarding a plane that starts in, ends in, or flies over the United

3

States.4
Plaintiffs claim that the federal agents named in the amended complaint

4
5

“exploited the significant burdens imposed by the No Fly List, its opaque nature

6

and ill‐defined standards, and its lack of procedural safeguards, in an attempt to

7

coerce Plaintiffs into serving as informants within their American Muslim

8

communities and places of worship.” App’x at 59 ¶ 8. When rebuffed, the federal

9

agents “retaliated against Plaintiffs by placing or retaining them on the No Fly

10

List.” Id.

In their amended complaint, Plaintiffs decry the secrecy around the “No Fly
List,” alleging that there is little public information about its size, the criteria for
inclusion, the standards for “derogatory information,” or the adequacy of its
procedural safeguards. Upon information and belief, Plaintiffs assert that the
“No Fly List” burgeoned from 3,400 individuals in 2009 to over 21,000
individuals by February 2012.
9
4

1

B.

2

As did the district court below, we present Tanvir’s story as illustrative of

3
4

Tanvir: An Illustrative Story

Plaintiffs’ experiences.
At the time the complaint was filed, Tanvir was a lawful permanent

5

resident living in Queens, New York. Tanvir’s wife, son, and parents remain in

6

Pakistan. In February 2007, Tanvir alleged that FBI Special Agents FNU Tanzin

7

and John Doe 1 approached him at work and questioned him for 30 minutes

8

about an acquaintance who allegedly entered the United States illegally. Two

9

days later, Agent Tanzin called Tanvir and asked whether he had anything he

10

“could share” with the FBI about the American Muslim community. App’x at 74

11

¶ 70. Tanvir said he told Agent Tanzin that he knew nothing relevant to law

12

enforcement.

13

In July 2008, after returning home from a trip to Pakistan to visit his

14

family, Tanvir was detained by federal agents for five hours at JFK Airport. His

15

passport was confiscated and he was told he could retrieve it on January 28,

16

2009, nearly six months later. Two days prior to that appointment, Agent Tanzin

17

and FBI Special Agent John Doe 2 visited Tanvir at his new workplace and asked

18

him to come to the FBI’s Manhattan field office. Tanvir agreed.
10

1

At the FBI field office, the federal agents questioned Tanvir for about an

2

hour. The agents asked Tanvir whether he was aware of Taliban training camps

3

near his home village in Pakistan and whether he had Taliban training. Tanvir

4

denied knowledge of the camps or participation in such training.

5

After the questioning, Agents Tanzin and John Doe 2 complimented

6

Tanvir and asked him to work as an informant for the FBI in Pakistan or

7

Afghanistan. Tanvir alleged that they offered him various incentives, including

8

facilitating visits for his family to the United States and paying for his parents’

9

religious pilgrimage. Despite the offer, Tanvir declined, stating that he did not

10

want to be an informant. The agents persisted, threatening Tanvir that his

11

passport would not be returned and he would be deported if he failed to

12

cooperate. Tanvir implored the agents not to deport him. At the meeting’s end,

13

the agents asked Tanvir to reconsider and to keep their conversation private.

14

The next day, Agent Tanzin asked Tanvir if he had reconsidered and

15

would become an informant. Agent Tanzin threatened Tanvir with deportation if

16

he did not cooperate. Again, Tanvir declined.

17
18

On January 28, 2009, Tanvir recovered his passport from Department of
Homeland Security (“DHS”) officers at JFK Airport without incident. The DHS
11

1

officers said his passport was withheld for an investigation, but that the

2

investigation was complete. Nevertheless, the next day, Agent Tanzin called

3

Tanvir and said that he asked for the release of Tanvir’s passport because Tanvir

4

was “cooperative” with the FBI. App’x at 77 ¶ 81.

5

The FBI agents continued to pressure Tanvir to work as an informant over

6

the next few weeks. Tanvir received numerous calls and visits at his workplace

7

from Agents Tanzin and John Doe 1. Tanvir stopped answering their phone calls

8

and asked them to stop their visits. Later, the agents asked Tanvir to submit to a

9

polygraph test, and when he declined, they threated to arrest him. When Tanvir

10

flew to Pakistan in July 2009 to visit his family, Agents Tanzin and John Doe 3

11

questioned Tanvir’s sister at her workplace about Tanvir’s travel.

12

After Tanvir returned to the United States in January 2010, he took a job as

13

a long‐haul trucker. The job required him to drive across the country and fly

14

back to New York after he had completed his route.

15

In October 2010, Tanvir heard that his mother was visiting New York from

16

Pakistan. Tanvir, who had been in Atlanta for work, booked a flight back to New

17

York. When he arrived at the Atlanta airport, an airline employee told Tanvir

18

that he could not fly. At that time, two FBI agents approached Tanvir and told
12

1

him to call the agents who had previously spoken to him in New York. Tanvir

2

contacted Agent Tanzin, who instructed that other agents would contact Tanvir

3

and that he should “cooperate.” App’x at 79 ¶ 92. Unable to fly to New York,

4

Tanvir traveled by bus—a 24‐hour ride.

5

Two days later, FBI Special Agent Sanya Garcia contacted Tanvir. She told

6

him that if he met with her and answered her questions, she would help remove

7

his name from the “No Fly List.” Tanvir declined, saying that he had already

8

answered the FBI’s questions. Because Tanvir believed he could no longer fly,

9

and therefore could not return to New York after completing his one‐way

10
11

deliveries, he quit his job as a long‐haul trucker.
On September 27, 2011, Tanvir filed a complaint with the DHS Traveler

12

Redress Inquiry Program (“TRIP”), an administrative mechanism for filing a

13

complaint about placement on the “No Fly List.”

14

The next month, Tanvir purchased tickets to Pakistan for himself and his

15

wife so that they could visit his ailing mother. The day before his flight, Agent

16

Garcia told Tanvir that he would not be able to fly unless he met with her and

17

answered her questions. Because of his urgent need to travel, Tanvir agreed to do

18

so. After answering the same questions that the other agents asked him
13

1

previously, Tanvir pleaded with Agent Garcia to allow him to fly to Pakistan the

2

next day. The next day, Agent Garcia told Tanvir that he could not fly. Moreover,

3

she stated that he could not fly in the future unless he submitted to a polygraph

4

test. Tanvir cancelled his flight and received only a partial refund. His wife

5

traveled alone to Pakistan.

6

After this incident, Tanvir hired counsel. Tanvir’s counsel communicated

7

with FBI lawyers. The FBI lawyers directed Tanvir’s counsel to the TRIP process,

8

even though Tanvir had already submitted a TRIP complaint and not yet

9

received any redress.

10

Tanvir persisted, buying another plane ticket to Pakistan to visit his ailing

11

mother. On December 11, 2011, however, he was denied boarding and told he

12

was on the “No Fly List.” This was the third time Tanvir was barred from

13

boarding a flight for which he had purchased a ticket.

14

In April 2012, nearly six months after Tanvir filed his complaint with TRIP,

15

he received a response. The response did not acknowledge that he was on the

16

“No Fly List,” but noted that “no changes or corrections are warranted at this

17

time.” App’x at 83 ¶ 110. Tanvir appealed this TRIP determination.

14

1

In November 2012, Tanvir purchased another ticket to Pakistan in an effort

2

to visit his ailing mother. Again, Tanvir was denied boarding when he arrived

3

for his flight. An FBI agent approached Tanvir and his counsel at the airport and

4

told them that Tanvir would not be removed from the “No Fly List” until he met

5

with Agent Garcia.

6

In March 2013, ten months after Tanvir appealed his TRIP determination,

7

he received a letter from DHS overturning that earlier determination. The letter

8

blamed Tanvir’s experience on probable “misidentification against a government

9

record” or “random selection,” and stated that the government “made updates”

10

to its records. App’x at 83 ¶ 114. Following this communication, Tanvir

11

purchased a plane ticket to Pakistan for June 2013. On June 27, 2013, Tanvir

12

successfully boarded a flight to Pakistan. By this time, over five years had passed

13

since Tanvir was first contacted by the FBI.

14

Tanvir asserts that because the federal agents wrongfully placed his name

15

on the “No Fly List,” Tanvir could not fly to visit his family in Pakistan, quit his

16

trucking job, lost money from unused airline tickets, and feared additional

17

harassment by the FBI.

18

15

1

C.

Procedural History

2

On October 1, 2013, Plaintiffs filed a complaint asserting that Defendants

3

violated their constitutional and statutory rights by placing their names on the

4

“No Fly List”—even though they posed no threat to aviation safety—in

5

retaliation for their refusal to become informants for the government. On April

6

22, 2014, Plaintiffs filed an amended complaint.

7

Plaintiffs sued Defendants in their official capacities under the First

8

Amendment, the Fifth Amendment, the Administrative Procedure Act, 5 U.S.C.

9

§§ 702, 706, and RFRA, 42 U.S.C. § 200bb et seq., seeking injunctive and

10

declaratory relief. Plaintiffs also sued the federal agents in their individual

11

capacities, seeking compensatory and punitive damages under the First

12

Amendment and RFRA.5
On July 28, 2014, the Defendants filed two separate motions to dismiss the

13
14

amended complaint. One motion sought to dismiss Plaintiffs’ official capacity

15

claims; the other sought to dismiss Plaintiffs’ individual capacity claims.

Plaintiffs and non‐appealing plaintiff Awais Sajjad asserted a First Amendment
retaliation claim against all 25 federal agents named as Defendants. Plaintiffs,
excluding Sajjad, asserted a claim under RFRA against only the 16 federal agents
named as Defendants that allegedly interacted with Plaintiffs.
16

5

1

On June 1, 2015, the government moved to stay Plaintiffs’ official capacity

2

claims, arguing that it had revised the redress procedures available to challenge

3

one’s designation on the “No Fly List,” and that Plaintiffs had availed themselves

4

of those procedures. On June 8, 2015, Plaintiffs received letters from DHS

5

informing them that the government knows of no reason why they would be

6

unable to fly. On June 10, 2015, Plaintiffs consented to a stay of their official

7

capacity claims. The district court stayed those claims and terminated the

8

government’s related motion to dismiss. The parties continued to dispute

9

Plaintiffs’ individual capacity claims.

10

D.

11

On September 3, 2015, the district court issued an opinion and order

12
13

District Court Opinion

dismissing Plaintiffs’ individual capacity claims.
First, the district court dismissed Plaintiffs’ First Amendment retaliation

14

claims, stating that the Supreme Court and this Court have “declined to extend

15

Bivens to a claim sounding in the First Amendment.” Tanvir v. Lynch, 128 F.

16

Supp.3d 756, 769 (S.D.N.Y. 2015) (quoting Turkmen v. Hasty, 789 F.3d 218, 236 (2d

17

Cir. 2015), rev’d in part and vacated and remanded in part sub nom. Ziglar v. Abbasi,

18

137 S. Ct. 1843 (2017)). Plaintiffs do not appeal that determination here.
17

1

Next, the district court held that RFRA does not permit the recovery of

2

money damages from federal officers sued in their individual capacities. The

3

district court determined that “Congress’ intent in enacting RFRA could not be

4

clearer.” Tanvir, 128 F. Supp.3d at 780. Specifically, the court determined that

5

Congress intended to restore the compelling interest test by which courts

6

evaluated free exercise claims before the Supreme Court’s decision in

7

Employment Division, Dept. of Human Res. of Or. v. Smith, 494 U.S. 872 (1990). In

8

doing so, it held that Congress did not express an intention to expand the

9

remedies available to those individuals who asserted that their free exercise of

10
11

religion was substantially burdened by the government.
The district court found this conclusion supported by the state of the law

12

at the time RFRA was passed, and RFRA’s legislative history. With respect to the

13

former, the district court stated that, at the time Smith was decided, the Supreme

14

Court had not recognized a Bivens remedy for claims under the Free Exercise

15

Clause, and to allow damages in this case against federal employees would

16

expand, rather than restore, the remedies available prior to Smith. With respect to

17

the latter, the district court identified congressional reports stating that Congress

18

in RFRA did not intend to “expand, contract or alter the ability of a claimant to
18

1

obtain relief in a manner consistent” with the Supreme Court’s pre‐Smith free

2

exercise jurisprudence. Tanvir, 128 F. Supp.3d at 778 (quoting S. Rep. No. 103‐111

3

at 12).
Finally, the district court rejected Plaintiffs’ assertions with respect to

4
5

Franklin v. Gwinnett Cty. Pub. Schs., 503 U.S. 60 (1992). In Franklin, the Supreme

6

Court stated that “we presume the availability of all appropriate remedies unless

7

Congress has expressly indicated otherwise.” Id. at 66. The district court

8

nevertheless found that the traditional Franklin presumption did not apply here.

9

In particular, the district court noted that “Franklin required the Supreme Court

10

to interpret an implied statutory right of action,” and held that Franklin’s

11

“ordinary convention” does not control where, as here, Congress created an

12

express private right of action. Tanvir, 128 F. Supp.3d at 779.
Plaintiffs appeal the district court’s ruling that RFRA does not permit the

13
14

recovery of money damages from federal officers sued in their individual

15

capacities.6 We agree with Plaintiffs, and reverse.

16

Plaintiffs voluntarily dismissed their official capacity claims on December 28,
2015, rendering the district court’s ruling on the individual claims a final
appealable order. See Tanvir v. Comey, No. 1:13‐cv‐06951‐RA (docs. 109, 111).
19

6

DISCUSSION

1
2
3
4

I.

Standard of Review
We review de novo a district court’s dismissal pursuant to Federal Rule of

5

Civil Procedure 12(b)(6). Town of Babylon, 699 F.3d at 227. When reviewing the

6

dismissal of a complaint for failure to state a claim, we accept as true the factual

7

allegations in the complaint and draw all reasonable inferences in plaintiff’s

8

favor. ATSI Commc’ns, Inc. v. Shaar Fund, Ltd., 493 F.3d 87, 98 (2d Cir. 2007). “To

9

survive a motion to dismiss, a complaint must contain sufficient factual matter,

10

accepted as true, to state a claim to relief that is plausible on its face.” Ashcroft v.

11

Iqbal, 556 U.S. 662, 678 (2009) (internal quotation marks omitted).

12

The district court here held that RFRA does not permit a plaintiff to

13

recover money damages against federal officers sued in their individual

14

capacities. Tanvir, 128 F. Supp.3d at 775. Where, as here, the district court

15

decision below “presents only a legal issue of statutory interpretation,” “[w]e

16

review de novo whether the district court correctly interpreted the statute.” White

17

v. Shalala, 7 F.3d 296, 299 (2d Cir. 1993).

18
19

20

1

II. Official Capacity and Individual Capacity Suits

2

The district court held that RFRA does not permit the recovery of money

3
4

damages against federal officers sued in their individual capacities. To frame our

5

discussion, we briefly address the difference between official capacity suits and

6

individual capacity suits.
The Supreme Court has stated that “official‐capacity suits generally

7
8

represent only another way of pleading an action against an entity of which an

9

officer is an agent.” Hafer v. Melo, 502 U.S. 21, 25 (1991) (citation and internal

10

quotation marks omitted). In an official capacity suit, “the real party in interest

11

… is the governmental entity and not the named official.” Id. By contrast,

12

individual capacity suits “seek to impose individual liability upon a government

13

officer for [her] actions under color of [] law.” Id. Any damages awarded in an

14

individual capacity suit “will not be payable from the public fisc but rather will

15

come from the pocket of the individual defendant.” Blackburn v. Goodwin, 608

16

F.2d 919, 923 (2d Cir. 1979).7

Suits against public officers that seek damages are directed at the particular
officer whose allegedly unlawful actions are claimed to have caused damage to
plaintiffs. In contrast, suits against officers in their official capacity, which
generally seek injunctive relief, are directed at the office itself. See Fed. R. Civ. P.
21

7

1

This distinction proves important with respect to the recovery of damages.

2

“Absent a waiver, sovereign immunity shields the Federal Government and its

3

agencies from suit.” Dep’t of Army v. Blue Fox, Inc., 525 U.S. 255, 260 (1999)

4

(citation omitted). Sovereign immunity does not, however, shield federal officials

5

sued in their individual capacities. Lewis v. Clarke, 137 S. Ct. 1285, 1291 (2017)

6

(“[S]overeign immunity does not erect a barrier against suits to impose

7

individual and personal liability.”) (internal quotation marks omitted).

8

III. Religious Freedom Restoration Act

9

“As in any case of statutory construction, we start our analysis . . . with the

10

language of the statute.” Chai v. Comm’r of Internal Revenue, 851 F.3d 190, 217 (2d

11

Cir. 2017) (citation omitted). “Where the statutory language provides a clear

12

answer, our analysis ends there.” Id. (citation and internal punctuation omitted).

13

“[I]f the meaning of the statute is ambiguous, we may resort to canons of

14

statutory interpretation to help resolve the ambiguity.” Id. (citation and brackets

15

omitted). “The plainness or ambiguity of statutory language is determined by

16

reference to the language itself, the specific context in which that language is
17(d). As a result, if the defendant in an official capacity suit leaves office, the
successor to the office replaces the originally named defendant. See Fed. R. Civ.
R. 25(d).
22

1

used, and the broader context of the statute as a whole.” Robinson v. Shell Oil Co.,

2

519 U.S. 337, 341 (1997).

3

A.

Statutory Text

4
5

In 1993, Congress passed RFRA. 42 U.S.C. § 2000bb, et seq. Congress stated

6

that its purposes in enacting RFRA were “to restore the compelling interest test”

7

that been applied in cases where free exercise of religion was substantially

8

burdened and “to provide a claim or defense to persons whose religious exercise

9

is substantially burdened by government.” 42 U.S.C. § 2000bb(b). Through

10

RFRA, Congress sought “to provide very broad protection for religious liberty.”

11

Burwell v. Hobby Lobby Stores, Inc., 134 S.Ct. 2751, 2760 (2014).

12

RFRA provides that the “Government shall not substantially burden a

13

person’s exercise of religion even if the burden results from a rule of general

14

applicability” unless the “Government” can “demonstrate[] that application of

15

the burden to the person—(1) is in furtherance of a compelling governmental

16

interest; and (2) is the least restrictive means of furthering that compelling

17

governmental interest.” 42 U.S.C. § 2000bb‐1(a), (b).

18
19

In order to protect this statutory right, RFRA created an explicit private
right of action. Id. § 2000bb‐1(c). That section permits any “person whose
23

1

religious exercise has been burdened in violation of [the statute]” to “assert that

2

violation as a claim or defense in a judicial proceeding and obtain appropriate

3

relief against a government.” Id. § 2000bb‐1(c) (emphasis added). RFRA defines the

4

term “government,” to include “a branch, department, agency, instrumentality,

5

and official (or other person acting under color of law) of the United States.” Id. §

6

2000bb‐2(1). RFRA does not define the term “appropriate relief.”

7

In its decision below, the district court determined that the phrase

8

“appropriate relief” did not include money damages from federal officials sued

9

in their individual capacities. See Tanvir, 128 F. Supp.3d at 775. The district court

10

did not address whether federal officers sued in their individual capacities are

11

included within RFRA’s definition of “government” and therefore amenable to

12

suit under RFRA. See id. at 774 n. 17.

13

B.

“Against a Government”

14
15

On appeal, the parties disagree over whether RFRA authorizes individual

16

capacity suits against government officials. In construing the meaning of the

17

term “government” under RFRA, we begin by reviewing RFRA’s plain language.

18

See Chai, 851 F.3d at 217. Because RFRA’s plain language “provides a clear

24

1

answer,” we conclude that RFRA authorizes individual capacity claims against

2

federal officers. Id.

3

As discussed above, RFRA permits a plaintiff to assert a violation of the

4

statute “as a claim or defense in a judicial proceeding and obtain relief against a

5

government.” 42 U.S.C. § 2000bb‐1(c). RFRA defines “government” to include “a

6

branch, department, agency, instrumentality, and official (or other person acting

7

under color of law) of the United States.” Id. § 2000bb‐2(1). When we substitute

8

that definition for the defined term, it is clear that a plaintiff may bring a claim

9

for “appropriate relief against” either a federal “official” or “other person acting

10

under color of [federal] law” whose actions substantially burden the plaintiff’s

11

religious exercise. Therefore, RFRA, by its plain terms, authorizes individual

12

capacity suits against federal officers.

13

Defendants argue, to the contrary, that the plain text of RFRA permits suits

14

only against officers in their official capacities and not suits against federal

15

officers in their individual capacities. Defendants argue that we: (1) should give

16

the term “government” its most natural reading; (2) should understand the

17

phrase “official” in the statutory definition of “government” as suggesting that

18

only official capacity suits are permitted; and (3) should conclude that the phrase
25

1

“or other person acting under color of law” is not intended to permit

2

government officers to be sued in their individual capacities. We disagree with

3

each argument.

4

First, we refuse Defendants’ request to apply a natural reading of the term

5

“government” in this case where RFRA includes an explicit definition of

6

“government.” 42 U.S.C. § 2000bb‐2(1). “When a statute includes an explicit

7

definition, we must follow that definition.” Stenberg v. Carhart, 530 U.S. 914, 942

8

(2000); Upstate Citizens for Equality, Inc. v. United States, 841 F.3d 556, 575 (2d Cir.

9

2016) (“In general, statutory definitions control the meaning of statutory

10

words.”) (internal quotation marks omitted). Further, the statute specifically

11

defines ʹgovernmentʹ to include officials and others acting under color of law.

12

There would be no need to permit suits against government agents in their

13

official capacity, since such a suit is simply a formal variant of an action that, in

14

substance, runs against the government itself. See Hafer, 502 U.S. at 25.

15

Second, RFRA’s use of the word “official” in the statutory definition of

16

“government” does not mandate that a plaintiff may only obtain relief against

17

federal officers in official capacity suits. In ordinary usage, an “official” is

18

generally defined simply as “one who holds or is invested with an office” and is
26

1

roughly synonymous with the term “officer.” Merriam‐Webster Unabridged,

2

http:/unabridged.merriam‐webster.com/unabridged/official (noun definition).

3

There is no reason to think that, in using this ordinary English word, Congress

4

intended to invoke the technical legal concept of “official capacity,” rather than

5

simply to state that government “officials” are amenable to suit. Moreover, the

6

statute permits suits against “officials (or other person[s] acting under color of

7

law).” 42 U.S.C.A. § 2000bb‐2(1). The specific authorization of actions broadly

8

against “other person[s] acting under color of law,” undercuts the assertion that

9

the term “official”’ was intended to limit the scope of available actions.

10

Further, a defendant’s status as a federal officer “is not controlling” in

11

determining whether a suit is, in reality, against the government. Stafford v.

12

Briggs, 444 U.S. 527, 542 n. 10 (1980) (citation omitted). Rather, “the dispositive

13

inquiry is ‘who will pay the judgment?’” Id. A plaintiff may not sue a federal

14

officer in her official capacity for money damages, because such suit seeks money

15

from the federal government, and sovereign immunity would bar recovery from

16

the federal government absent an explicit waiver. However, a plaintiff may sue a

17

federal officer in her individual capacity without implicating sovereign

27

1

immunity concerns. See Hafer, 502 U.S. at 25‐28. RFRA’s use of the word “official”

2

does not alter that rule.

3

Third, we reject Defendants’ argument that the phrase “other person

4

acting under color of law” authorizes only official capacity suits. Rather, that

5

phrase “contemplates that persons ‘other’ than ‘officials’ may be sued under

6

RFRA, and persons who are not officials may be sued only in their individual

7

capacities.” Patel v. Bureau of Prisons, 125 F. Supp.3d 44, 50 (D.D.C. 2015) (citing

8

Jama v. INS, 343 F. Supp.2d 338, 374 (D. N.J. 2004)) (emphasis added).

9

“Defendants’ interpretation would render the entire phrase surplasage: once

10

Congress authorized official‐capacity suits against ‘officials,’ adding another

11

term that allowed only official‐capacity suits would have had no effect

12

whatsoever.” Id.

13

Our conclusion that RFRA authorizes individual capacity claims against

14

federal officers is consistent with the Supreme Court’s recognition of RFRA’s

15

“[s]weeping coverage,” City of Boerne v. Flores, 521 U.S. 507, 532 (1997), which

16

“was designed to provide very broad protection for religious liberty,” Hobby

17

Lobby, 134 S. Ct. at 2767. RFRA’s reach “ensures its intrusion at every level of

18

government, displacing laws and prohibiting official actions of almost every
28

1

description and regardless of subject matter.” City of Boerne, 521 U.S. at 532

2

(further stating that RFRA’s restrictions “apply to every agency and official of the

3

Federal … Government[]”).

4

Moreover, we draw support for our conclusion from Congress’s use of

5

comparable language in enacting 42 U.S.C. § 1983, which, long prior to RFRA’s

6

enactment, had consistently been held to authorize individual and official

7

capacity suits. See, e.g., Hafer, 502 U.S. at 25; Graham, 473 U.S. at

8

166. Section 1983 creates a private right of action against “persons” who, acting

9

“under color of [law],” violate a plaintiff’s constitutional rights—regardless of

10

whether that person was acting pursuant to an unconstitutional state law,

11

regulation, or policy. 42 U.S.C. § 1983.

12

We, like several of our sister circuits before us, do not find “this word

13

choice [] coincidental,” as “Congress intended for courts to borrow concepts from

14

§ 1983 when construing RFRA.” Mack v. Warden Loretto FCI, 839 F.3d 286, 302 (3d

15

Cir. 2016); see also Listecki v. Official Comm. of Unsecured Creditors, 780 F.3d 731, 738

16

(7th Cir. 2015); Sutton v. Providence St. Joseph Med. Ctr., 192 F.3d 826, 834‐35 (9th

17

Cir. 1999). As these courts have explained, “[w]hen a legislature borrows an

18

already judicially interpreted phrase from an old statute to use it in a new
29

1

statute, it is presumed that the legislature intends to adopt not merely the old

2

phrase but the judicial construction of that phrase.” Sutton, 192 F.3d at 834‐35

3

(citation omitted); Mack, 839 F.3d at 302 (quoting same); see also Leonard v. Israel

4

Discovery Bank, 199 F.3d 99, 104 (2d Cir. 1999) (“[R]epetition of the same language

5

in a new statute indicates, as a general matter, the intent to incorporate its

6

judicial interpretations as well.”) (citation and ellipses omitted).

7

In light of this presumption, given both RFRA’s and Section 1983’s

8

applicability to “person[s]” acting “under color of law,” we hold that RFRA, like

9

Section 1983, authorizes a plaintiff to bring individual capacity claims against

10
11

federal officials or other “person[s] acting under color of [federal] law.”
C.

“Appropriate Relief”

12
13

Having determined that RFRA permits individual capacity suits against

14

government officers acting under color of law, we now turn to whether

15

“appropriate relief” in that context includes money damages. In its opinion

16

below, the district court held that “appropriate relief” did not include money

17

damages in suits against federal officers in their individual capacities. Tanvir, 128

18

F. Supp.3d at 780‐81. We disagree.

19

30

a. Ambiguity and the Franklin Presumption

1
2
3

Starting with RFRA’s statutory text, as we do in any case of statutory

4

construction, we note that RFRA does not define the phrase “appropriate relief.”

5

See Chai, 851 F.3d at 217. Unable to draw further insight from a plain reading of

6

the statute, we turn to the context in which the language is used and the context

7

of the statute more broadly. See Robinson, 519 U.S. at 341.
In the context of RFRA’s companion statute, the Religious Land Use and

8
9

Institutionalized Persons Act of 2000 (“RLUIPA”), 42 U.S.C. § 2000cc et seq., 8 the

10

Supreme Court acknowledged that the phrase “‘appropriate relief’ is open‐ended

11

and ambiguous about what types of relief it includes . . . Far from clearly

12

identifying money damages, the word ‘appropriate’ is inherently context‐

13

dependent.” Sossamon, 563 U.S. at 286. Indeed, “[i]n some contexts, ‘appropriate
The district court opinion aptly notes that RFRA and RLUIPA are companion
statutes. See Tanvir, 128 F. Supp.3d at 775. After the Supreme Court in City of
Boerne, 521 U.S. 507, determined that RFRA was unconstitutional as applied to
state and local governments because it exceeded Congress’s power under Section
5 of the Fourteenth Amendment, Congress passed RLUIPA pursuant to the
Spending Clause and Commerce Clause. See Tanvir, 128 F. Supp.3d at 775 n. 18;
Sossamon v. Texas, 563 U.S. 277, 281 (2011). “RLUIPA borrows important elements
from RFRA . . . includ[ing] an express private cause of action that is taken from
RFRA.” Sossamon, 563 U.S. at 281. As a result, courts commonly apply RFRA case
law to issues arising under RLUIPA and vice versa. See Redd v. Wright, 597 F.3d
532, 535 n. 2 (2d Cir. 2010).
31
8

1

relief’ might include damages.” Webman v. Fed. Bureau of Prisons, 441 F.3d 1022,

2

1026 (D.C. Cir. 2006). But in other contexts, “another plausible reading is that

3

‘appropriate relief’ covers equitable relief but not damages.” Id. As with the

4

analogous phrase in RLUIPA, we agree that the phrase “appropriate relief” in

5

RFRA’s statutory text is ambiguous.
Having made that determination, “we resort to canons of statutory

6
7

interpretation to help resolve the ambiguity.” Chai, 851 F.3d at 217. We turn to

8

the “the venerable canon of construction that Congress is presumed to legislate

9

with familiarity of the legal backdrop for its legislation.” Mobil Cerro Negro, Ltd. v.

10

Bolivarian Republic of Venezuela, 863 F.3d 96, 115 (2d Cir. 2017); see also Ryan v.

11

Gonzales, 568 U.S. 57, 66 (2013) (“We normally assume that, when Congress

12

enacts statutes, it is aware of relevant judicial precedent.”). We have stated:
Of course, Congress may depart from [our traditional legal
concepts] . . . But when a statute does not provide clear direction, it
is more likely that Congress was adopting, rather than departing
from, established assumptions about how our legal . . . system
works. We will not lightly assume a less conventional meaning
absent a clear indication that such a meaning was intended.

13
14
15
16
17
18
19
20

Nat. Res. Def. Council, Inc. v. U.S. Food & Drug Admin., 760 F.3d 151, 166 (2d Cir.

21

2014).
32

1

Congress enacted RFRA in the wake of Franklin, 503 U.S. 60, a Supreme

2

Court decision issued over a year prior to the enactment of the statute. In

3

Franklin, the Supreme Court stated that when faced with “the question of what

4

remedies are available under a statute that provides a private right of action,” it

5

“presume[s] the availability of all appropriate remedies unless Congress has expressly

6

indicated otherwise.” Id. at 65‐66 (emphasis added); see also Carey v. Piphus, 435 U.S.

7

247, 255 (1978) (upholding damages remedy under 42 U.S.C. § 1983, even though

8

the enacting Congress did not “address directly the question of damages”). It

9

based that presumption on a long‐standing rule that “has deep roots in our

10

jurisprudence:” that “[w]here legal rights have been invaded, and a federal

11

statute provides for a general right to sue for such invasion, federal courts may

12

use any available remedy to make good the wrong done.” Franklin, 503 U.S. at 66

13

(alterations omitted). Applying this traditional presumption in the context of an

14

implied right of action to enforce Title IX, the Supreme Court held that a

15

damages remedy was available. Id. at 76.

16

RFRA permits plaintiffs to “obtain appropriate relief against a

17

government,” 42 U.S.C. § 2000bb‐1(c), and includes no “express[] indicat[ion]”

18

that it proscribes the recovery of money damages, Franklin, 503 U.S. at 66.
33

1

Because Congress enacted RFRA one year after the Supreme Court decided

2

Franklin, and because Congress used the very same “appropriate relief” language

3

in RFRA that was discussed in Franklin, the Franklin presumption applies to

4

RFRA’s explicit private right of action. In light of RFRA’s purpose to provide

5

broad protections for religious liberty, Hobby Lobby, 134 S.Ct. at 2760, and

6

applying the Franklin presumption here, we hold that RFRA authorizes the

7

recovery of money damages against federal officers sued in their individual

8

capacities.9
b. Defendants’ Arguments to the Contrary

9
10

i. Precedent Does Not Require a Different Outcome

11
12

Defendants argue that our holding here is inconsistent with several

13
14

decisions by the Supreme Court, our Court, and our sister circuits limiting the

Indeed, the determination that RFRA permits individual capacity suits leads
logically to the conclusion that it permits a damages remedy against those
individuals. An individual capacity suit that is confined to injunctive relief has
limited value; official capacity suits for injunctive relief already supply injunctive
relief against the governmental entity as a whole. As a result, plaintiffs will
rarely, if ever, prefer to enjoin the conduct of a single officer. In contrast, as noted
above, suits seeking compensation from officers in their official capacity, being in
essence suits against the state or federal government itself, are generally barred
by sovereign immunity. Thus, individual capacity suits tend to be associated
with damages remedies, and official capacity suits with injunctive relief.
34
9

1

recovery of money damages in suits under RFRA and RLUIPA. See Sossamon, 563

2

U.S. 277; Washington v. Gonyea, 731 F.3d 143, 145 (2d Cir. 2013); Webman, 441 F.3d

3

at 1026; Oklevueha Native Am. Church of Hawaii, Inc. v. Holder, 676 F.3d 829, 840‐41

4

(9th Cir. 2012); Davila v. Gladden, 777 F.3d 1198, 1210 (11th Cir. 2015), cert. denied

5

sub nom. Davila v. Haynes, 136 S.Ct. 78 (2015). Our holding, however, is not

6

inconsistent with these decisions, each of which is based upon animating

7

principles that are inapplicable here.

8
9

In Sossamon, the Supreme Court held that the phrase “appropriate relief”
in RLUIPA does not permit the recovery of money damages against a state or

10

state officers sued in their official capacities. 563 U.S. at 288. The Supreme Court

11

based its conclusion on considerations relating to state sovereign immunity.

12

Namely, when determining whether an act of Congress waives sovereign

13

immunity, the Court stated that such language “will be strictly construed, in

14

terms of scope, in favor of the sovereign.” Id. at 285. Therefore, in that context,

15

the Court’s relevant inquiry was the opposite of the one at issue here: “not

16

whether Congress has given clear direction that it intends to exclude a damages

17

remedy, see Franklin, [503 U.S.] at 70‐71, but whether Congress ha[d] given clear

18

direction that it intend[ed] to include a damages remedy.” Sossamon, 563 U.S. at
35

1

289 (emphasis in original). Because the phrase “appropriate relief” in that context

2

did not “unequivocally express[]” Congress’s intent to waive state sovereign

3

immunity, the Supreme Court held that RLUIPA did not permit a suit for

4

monetary damages against a state or state officials sued in their official

5

capacities. Id. at 288.

6

Like Sossamon, several of our sister circuits have determined that RFRA’s

7

prescription for “appropriate relief” does not include damages against the

8

federal government or its officers acting in their official capacities. See Webman,

9

441 F.3d at 1026; Oklevueha Native Am. Church of Hawaii, 676 F.3d at 840‐41; Davila

10

777 F.3d at 1210. These courts so held because, in the context of suits against the

11

federal government and its officers in their official capacities, the phrase

12

“appropriate relief” similarly does not express an unambiguous waiver of the

13

federal government’s sovereign immunity. See, e.g., Davila, 777 F.3d at 1210

14

(“Congress did not unequivocally waive its sovereign immunity in passing

15

RFRA. RFRA does not therefore authorize suits for money damages against

16

officers in their official capacities.”).

17
18

The animating principles underlying Sossamon, Webman, Oklevueha Native
Am. Church of Hawaii, and Davila, however, are absent from the instant case. Each
36

1

of those cases involved a question of whether “appropriate relief” under RFRA

2

or RLUIPA permitted suits against a sovereign or its officers in their official

3

capacities. Although the Supreme Court and our sister circuits declined to

4

construe the phrase “appropriate relief” to amount to an explicit waiver of

5

sovereign immunity, Plaintiffs’ individual capacity suits against Defendants

6

present no sovereign immunity concerns here. This is so because Plaintiffs seek

7

monetary relief from those officers personally, not from the federal or state

8

government. See Hafer, 502 U.S. at 25‐28; Blackburn, 608 F.2d at 923. As we stated

9

above, “Congress need not waive sovereign immunity to permit an individual‐

10

capacity suit against a federal official.” Patel, 125 F. Supp.3d at 54 (citing Larson,

11

337 U.S. at 686‐87).

12

Indeed, as the district court below acknowledged in its discussion of

13

precedent, “[b]ecause these decisions . . . are grounded in principles of sovereign

14

immunity, they are of limited assistance in addressing the question of damages

15

against those who ‘come to court as individuals.’” Tanvir, 128 F. Supp.3d at 775

16

n. 19 (quoting Hafer, 502 U.S. at 27). We agree and similarly find those cases

17

inapplicable here where sovereign immunity concerns are not at play.

37

1

Furthermore, our holding that RFRA permits the recovery of money

2

damages against federal officers sued in their individual capacities does not

3

conflict with our decision in Washington v. Gonyea. In Gonyea, we held that the

4

phrase “appropriate relief” in RLUIPA prohibits both the recovery of money

5

damages from state officers sued in their official capacities and in their individual

6

capacities. Gonyea, 731 F.3d at 145. The conclusion that RLUIPA does not permit

7

the recovery of money damages from state officers sued in their official capacities

8

follows directly from the Supreme Court’s decision in Sossamon. 563 U.S. at 293

9

(“States, in accepting federal funding, do not consent to waive their sovereign

10

immunity to private suits for money damages under RLUIPA because no statute

11

expressly and unequivocally includes such a waiver.”).

12

Gonyea’s conclusion that RLUIPA does not permit the recovery of money

13

damages from state officers sued in their individual capacities follows from

14

another source: the constitutional basis upon which Congress relied in enacting

15

RLUIPA. RLUIPA “was enacted pursuant to Congress’ spending power, which

16

allows the imposition of conditions, such as individual liability, only on those

17

parties actually receiving state funds.” 731 F.3d at 145 (citation omitted).

18

“Applying restrictions created pursuant to the Spending Clause to persons or
38

1

entities other than the recipients of the federal funds at issue would have the

2

effect of binding non‐parties to the terms of the spending contract.” Patel, 125 F.

3

Supp.3d at 52 (internal quotation marks omitted). “Indeed, to decide otherwise

4

would create liability on the basis of a law never enacted by a sovereign with the

5

power to affect the individual rights at issue—i.e., the state receiving the federal

6

funds—and this would raise serious questions regarding whether Congress had

7

exceeded its authority under the Spending Clause.” Gonyea, 731 F.3d at 146

8

(emphasis in original; citations and internal punctuation omitted). As a result, in

9

Gonyea, we held that RLUIPA did not permit a plaintiff to sue state officials in

10

their individual capacities because the state prison, and not the state prison

11

officials, was the ‘contracting party,’ which had “agree[d] to be amenable to suit

12

as a condition to received funds.” Id. at 145.

13

RFRA, by contrast, was enacted pursuant to Section 5 of the Fourteenth

14

Amendment and the Necessary and Proper Clause. Hankins v. Lyght, 441 F.3d 96,

15

105 (2d Cir. 2006). RFRA’s constitutional bases thus “do[] not implicate the same

16

concerns” as those relevant to RLUIPA and the Spending Clause, which we

17

addressed in Gonyea. Mack, 839 F.3d at 303‐04; see also Tanvir, 128 F. Supp. 3d at

18

775 n. 19. Because the animating principles underlying our decision in Gonyea are
39

1

absent in the instant case, our holding here—that RFRA permits the recovery of

2

money damages from federal officials sued in their individual capacities—and

3

our holding in Gonyea—that RLUIPA does not permit the recovery of money

4

damages from state officials sued in their individual capacities—are entirely

5

consistent.

6

Defendants complain that our holding in this case makes the phrase

7

“appropriate relief” in RFRA into a chameleon. See United States v. Santos, 553

8

U.S. 507, 522 (2008) (plurality op.) (stating that the Supreme Court has “forcefully

9

rejected” the “interpretive contortion” of “giving the same word, in the same

10

statutory provision, different meanings in different factual contexts”) (emphasis

11

omitted). But that is incorrect. To the contrary, we are tasked with interpreting

12

the meaning of RFRA’s phrase “appropriate relief,” an inquiry that is “inherently

13

context‐dependent.” Sossamon, 563 U.S. at 286. Indeed, the word ‘appropriate’

14

does not change its meaning; rather, the question addressed in each of these

15

various contexts is what sort of relief is ‘appropriate’ in that particular situation.

16

And, since the relevant animating principles vary appreciably across legal

17

contexts, the meaning of ‘appropriate’ may well take on different meanings in

18

different settings.
40

1

At the time of the district court decision below, neither the Supreme Court

2

nor any of our sister circuits had squarely addressed whether RFRA provides for

3

money damages.10 Since then, however, the Third Circuit has held, as we do

4

now, that RFRA authorizes individual capacity suits against federal officers for

5

money damages. See Mack, 839 F.3d at 304.
In Mack, the Third Circuit reached that holding by applying the Franklin

6
7

presumption—that any “appropriate relief” is available unless Congress

8

expressly indicates otherwise. Id. at 302‐03. The court found that its conclusion

9

was buttressed by the fact that, in enacting RFRA, Congress used the exact

10

language (“appropriate relief”) discussed by the Supreme Court in Franklin. Id. at

11

303. “Congress enacted RFRA one year after Franklin was decided and was

12

therefore well aware that ‘appropriate relief’ means what it says, and that,

The Seventh Circuit has previously decided that a plaintiff was entitled to sue
state prison officials in their individual capacities for damages. Mack v. O’Leary,
80 F.3d 1175, 1177 (7th Cir. 1996) (Posner, J.), vacated on other grounds, 522 U.S. 801
(1997). Before reaching that conclusion, the court noted that RFRA “says nothing
about remedies except that a person whose rights under the Act are violated
‘may assert that violation as a claim or defense in a judicial proceeding and
obtain appropriate relief against a government.’” Id. (emphasis in original)
(quoting 42 U.S.C. § 2000bb‐1(c)). The court also acknowledged that the
defendants in that case did not contest the availability of damages as a remedy
under RFRA. Id.
41
10

1

without expressly stating otherwise, all appropriate relief would be available.”

2

Id. at 303.11 In light of RFRA’s purpose of providing broad religious liberty

3

protections, the Third Circuit concluded that it saw “no reason why a suit for

4

money damages against a government official whose conduct violates RFRA

5

would be inconsistent with” that purpose. Id.12
We agree with the Third Circuit’s reasoning in Mack and adopt it here. In

6
7

particular, we reject a strained reading of “appropriate relief” that would be less

8

generous to plaintiffs under RFRA than under implied rights of action, and thus

9

would undermine Congress’s intention to “provide broad religious liberty

10

protections.” Id. Further, as one district court has pointed out, “[i]t seems

Of note, the Third Circuit in Mack stated that “[b]ecause Mack brings his RFRA
claim against only [two federal officers] in their individual capacities, the federal
government’s sovereign immunity to suits for damages is irrelevant here.” Id. at
302 n. 92.
12 The court in Mack drew further support from the similarities between RFRA
and 42 U.S.C. § 1983, which has long permitted money damages against state
officials sued in their individual capacities. Id. By comparison, the court
distinguished its earlier decision in Sharp v. Johnson, 669 F.3d 144, 154‐55 (3d Cir.
2012), in which it found that RLUIPA did not provide for money damages
against state officials sued in their individual capacities, by pointing out how
Congress’s constitutional authorization for RLUIPA (Commerce Clause and
Spending Clause) poses concerns not relevant to its analysis of RFRA (Necessary
and Proper Clause and Section 5 of Fourteenth Amendment).
11

42

1

unlikely that Congress would restrict the kind of remedies available to plaintiffs

2

who challenge free exercise violations in the same statute it passed to elevate the

3

kind of scrutiny to which such challenges would be entitled.” Jama, 343 F. Supp.2d

4

at 374‐75 (emphasis in original). Given that Congress has not specified that

5

individual capacity suits for money damages should be barred under RFRA, and

6

that, unlike in the RLIUPA context, no constitutional conflict prevents their

7

application, we find that such suits are wholly appropriate under this statutory

8

scheme.

9
10

ii. The Franklin Presumption Is Not Confined to Statutes with
Implied Rights of Action

11
12

The district court below found that the Franklin presumption did not apply

13

in the instant case. Tanvir, 128 F. Supp.3d at 779. In making that determination,

14

the district court noted that Franklin “required the Supreme Court to interpret the

15

scope of an implied statutory right of action.” Id. (emphasis in original). By

16

comparison, Congress created an express private right of action in RFRA. See 42

17

U.S.C. § 2000bb‐1(c). The district court held that “the Franklin presumption is

18

thus inapplicable” to RFRA “and the meaning of ‘appropriate relief’ must be

19

discerned using the traditional tools of statutory construction.” Tanvir, 128 F.
43

1

Supp.3d at 779. Applying those tools, the district court discerned that Congress

2

lacked an intent to permit money damages under RFRA through its use of the

3

phrase “appropriate relief.” Id.

4

Although Franklin indeed considered the availability of damages under a

5

statute with an implied private right of action, we are not convinced that the

6

district court’s distinction is correct. The logical inference, in our view, runs the

7

other way: one would expect a court to be more cautious about expanding the

8

scope of remedies available for a private right of action that is not explicitly

9

provided by Congress, than in determining what remedies are available for a

10

right of action that Congress has expressly created. This is particularly true

11

where, in creating the right of action, Congress has also explicitly authorized

12

courts to provide any “appropriate relief,” without limitation. In fact, the Court

13

in Franklin recounted its own case, Kendall v. United States ex rel. Stokes, in which

14

it held that damages were available under a statute with an explicit private right

15

of action where that statute failed to specify the remedies available. 37 U.S. (12

16

Pet) 524, 624 (1838) (stating that to find otherwise would present “a monstrous

17

absurdity in a well organized government, that there should be no remedy,

18

although a clear and undeniable right should be shown to exist”).
44

1

As discussed above, the Third Circuit in Mack applied the Franklin

2

presumption in determining that RFRA’s express private right of action

3

permitted the recovery of money damages against individuals sued in their

4

individual capacities. Mack, 839 F.3d at 303‐04; see also Patel, 125 F. Supp.3d at 53

5

n. 1 (“[T]he mere mention of remedies [in RFRA] does not rebut the [Franklin]

6

presumption;” rather, the phrase “appropriate relief” “does nothing more than

7

authorize what courts applying Franklin presume, and it falls far short of an

8

express indication that damages are prohibited.”) (internal punctuation omitted).

9

Other courts have applied the Franklin presumption in the context of statutes

10

containing express private rights of action. See, e.g., Reich v. Cambridgeport Air.

11

Sys., 26 F.3d 1187, 1191 (1st Cir. 1994) (applying Franklin presumption to

12

conclude that “all appropriate relief” under Section 11 of the Occupational Safety

13

and Health Act included money damages); Ditulio v. Boehm, 662 F.3d 1091, 1098

14

(9th Cir. 2011) (holding that punitive damages were available under the

15

Trafficking Victims Protection Act, which permits the recovery of “damages,”

16

because the court “follow[s] the ‘general rule’ that we should award ‘any

17

appropriate relief in a cognizable cause of action brought pursuant to a federal

18

statute’” (quoting Franklin, 503 U.S. at 71)).
45

1

We disagree with the district court’s decision to limit the application of the

2

Franklin presumption in this case. The Franklin presumption need not be confined

3

to only those cases interpreting the remedies available under an implied private

4

right of action. To the contrary, “[t]he same presumption applies here—more so,

5

we think, because Congress expressly stated that a claimant may obtain

6

‘appropriate relief’ against a government—the exact language used in Franklin.”

7

Mack, 839 F.3d at 303. Thus, we reject the district court’s position that the Franklin

8

presumption does not apply in interpreting the meaning of “appropriate relief”

9

under RFRA.

10

iii. Legislative History

11

Although we conclude that the Franklin presumption extends to express

12

private rights of action, the presumption can be rebutted. Pursuant to Franklin,

13

“we presume the availability of all appropriate remedies unless Congress has

14

expressly indicated otherwise,” 503 U.S. at 66, and our analysis of whether

15

Congress intended to limit the application of this general principle will vary

16

depending on whether the right of action is implied or explicit.

17
18

Where a statutory cause of action is implied, it is futile to resort to the
statutory text and legislative history, because Congress usually has not spoken
46

1

about remedies applicable to a right that the federal courts, rather than Congress,

2

created. See id. at 71 (“[T]he usual recourse to statutory text and legislative

3

history. . . necessarily will not enlighten our analysis.”). Accordingly, our

4

analysis of Congress’s intent in such contexts “is not basically a matter of

5

statutory construction,” but rather a matter of “evaluat[ing] the state of the law

6

when the Legislature passed [the statute].” Id. (emphasis in original).

7

On the other hand, where the private right of action is express, the

8

statutory text and legislative history may enlighten our understanding. The

9

question thus becomes whether these interpretative sources exhibit a “clear

10

direction” by Congress that the federal courts lack “the power to award any

11

appropriate relief in a cognizable cause of action brought pursuant to a

12

federal statute.” Id. at 70‐71. We conclude that neither the statutory text nor the

13

legislative history provides such a clear direction here.

14

As noted above, the district court supported its conclusion in part by

15

referencing legislative history indicating that RFRA was intended solely to

16

reverse the Supreme Court’s decision in Smith. See Tanvir, 128 F. Supp. 3d at 778‐

17

80. For instance, the Senate Committee Report, which discusses the background

18

and purpose for RFRA, states that “the purpose of this act is only to overturn the
47

1

Supreme Court’s decision in Smith,” S. Rep. No. 103‐111, at 12 (1993), and by

2

doing so restore the compelling interest test to free exercise claims, id. at 8. The

3

House Committee Report similarly focuses on the effect of the Smith decision and

4

the resulting outcome that free exercise claims receive the “the lowest level of

5

scrutiny employed by the courts.” H.R. Rep. No. 103‐88, at 5‐6 (1993).
The Senate and House Committee Reports, however, are not conclusive as

6
7

to the meaning of RFRA’s statutory text. The statutory text of RFRA reflects a

8

dual purpose: “to restore the compelling interest test” applied by the Supreme

9

Court in free exercise cases before Smith, and “to provide a claim or defense to

10

persons whose religious exercise is substantially burdened by government.” 42

11

U.S.C. § 2000bb(b). In accomplishing the latter purpose, Congress also codified a

12

statutory cause of action to bring claims against officials in their individual

13

capacities—a type of action never explicitly authorized (or foreclosed) by the

14

Supreme Court’s free exercise jurisprudence. Congress accordingly went beyond

15

merely restoring the compelling interest test. It removed ambiguity about who

16

could be held liable for violations of religious exercise.13

The Supreme Court also has indicated that RFRA’s least restrictive means
requirement may well have gone beyond what was required by its pre‐Smith
48
13

1

The legislative history further fails to provide an “express[]” and “clear

2

direction” that Congress intended to preclude litigants from seeking damages in

3

these individual capacity suits. Franklin, 503 U.S. at 66, 70. To be sure, the House

4

and Senate Committee Reports each contain similar language stating, “[t]o be

5

absolutely clear, the bill does not expand, contract or alter the ability of a

6

claimant to obtain relief in a manner consistent with free exercise jurisprudence,

7

including Supreme Court jurisprudence, under the compelling governmental

8

interest test prior to Smith.” H.R. Rep. No. 103‐88, at 8; see also S. Rep. No. 103‐

decisions. See City of Boerne, 521 U.S. at 509 (“[T]he least restrictive means
requirement was not used in the pre‐Smith jurisprudence RFRA purported to
codify.”); see also Hobby Lobby, 134 S. Ct. at 2761 n. 3 (observing that City of Boerne
reflects an understanding that RFRA’s least restrictive means requirement
“provided even broader protection for religious liberty than was available under
those [pre‐Smith] decisions”); id. at 2767 n. 18 (declining to decide whether
RFRA’s least restrictive means requirement in fact “went beyond what was
required by our pre‐Smith decisions”); id. at 2793 (Ginsburg, J., dissenting) (“Our
decision in City of Boerne, it is true, states that the least restrictive means
requirement was not used in the pre‐Smith jurisprudence RFRA purported to
codify. As just indicated, however, that statement does not accurately convey the
Courtʹs pre‐Smith jurisprudence.”) (internal quotation marks and citation
omitted). If RFRA’s least restrictive means requirement in fact went beyond pre‐
Smith jurisprudence, such an extension further supports our holding that RFRA
provides an individual damages remedy. We need not decide this dispute today,
however, because our holding remains the same in light of RFRA’s statutory text
and legislative history.
49

1

111, at 12 (“To be absolutely clear, the act does not expand, contract or alter the

2

ability of a claimant to obtain relief in a manner consistent with the Supreme

3

Court[‘]s[] free exercise jurisprudence under the compelling governmental

4

interest test prior to Smith.”). It does not follow, however, that Congress therefore

5

intended to limit the remedies available for RFRA violations.
As an initial matter, the broader legislative history shows that the House

6
7

and Senate Committee Reports were not using the term “relief” to refer to

8

remedies. Rather, the reports were concerned with claimants bringing particular

9

causes of action. See generally Douglas Laycock & Oliver S. Thomas, Interpreting

10

the Religious Freedom Restoration Act, 73 Tex. L. Rev. 209, 236‐39 (1994). During the

11

House and Senate hearings, several religious and social organizations raised

12

concerns that claimants would use RFRA to challenge restrictions on abortion,

13

tax exemptions, and government funding for religious organizations.14 These

See Religious Freedom Restoration Act of 1991: Hearings on HR. 2797 Before the
Subcomm. on Civil and Constitutional Rights of the H. Comm. on the Judiciary, 102d
Cong. 33‐35, 40‐43 (1992) (statement of Mark E. Chopko, Gen. Counsel, United
States Catholic Conference); id. at 270‐301 (statement of James Bopp, Jr., Gen.
Counsel, National Right to Life Committee, Inc.); The Religious Freedom
Restoration Act: Hearing on S. 2969 Before the Sen. Comm. on the Judiciary, 102d
Cong., 99‐115 (1992) (statement of Mark E. Chopko, Gen. Counsel, United States
50

14

1

concerns were sufficiently serious that several key Republican representatives

2

withdrew their support for the bill and introduced legislation that explicitly

3

prohibited claimants from using the statute to affect those issues. Id.; see also H.R.

4

4040, 102d Cong. § 3(c)(2) (1991).

5

RFRA’s lead sponsors subsequently agreed to compromise language in the

6

House and Senate Committee Reports addressing these concerns, and made clear

7

that the act “does not expand, contract or alter the ability of a claimant to obtain

8

relief” in accordance with the federal courts’ free exercise jurisprudence. Laycock

9

& Thomas, supra, at 236‐39; see also S. Rep. No. 103‐111, at 12; H.R. Rep, No. 103‐

10

88, at 8. The reports accordingly stated that claims challenging abortion

11

restrictions should be adjudicated pursuant to the Supreme Court’s decision in

12

Planned Parenthood of Southeastern Pennsylvania v. Casey, 505 U.S. 833 (1992), and

13

that the bill does “not change the law” determining whether religious

14

organizations may receive public funding or enjoy tax exemptions. S. Rep. No.

15

103‐111, at 12; HR, Rep. No. 103‐88, at 8. Taken in context, it is thus clear that

16

Congress was not concerned with limiting plaintiffs’ available remedies under

Catholic Conference); id. at 203‐37 (statement of James Bopp, Jr., Gen. Counsel,
National Right to Life Committee, Inc.).
51

1

the act—it was concerned with preventing plaintiffs from pursuing certain

2

causes of action.15
Moreover, even if the compromise language in the House and Senate

3
4

Committee Reports could be read as excluding certain remedies from RFRA’s

5

scope, it does not clearly indicate that Congress intended to exclude an

6

individual damages remedy. As previously noted, the Senate Committee Report

7

states that the act does not “alter the ability of a claimant to obtain relief in a

8

manner consistent with the Supreme Courts’[] free exercise jurisprudence …

9

prior to Smith.” S. Rep. No. 103‐111, at 12. The Supreme Court, in turn, never

10

ruled out the possibility of plaintiffs’ bringing individual damages claims for free

11

exercise violations before Smith was decided. To the contrary, in Bivens v. Six

The floor debate likewise confirms that Congress intended to limit the causes
of action that could be brought under the statute. Representative Henry Hyde
stated that he had offered amendments to RFRA because he was concerned that
the legislation would “create an independent statutory basis” for individuals to
challenge restrictions on abortion, social service programs operated by religious
institutions with public funds, and the tax‐exempt status of religious institutions.
139 Cong. Rec. 103, 9682 (1993). Representative Hyde further stated that his
concerns were “resolved either through explicit statutory changes or through
committee report language,” which “ma[de] clear” that “such claims are not the
appropriate subject of litigation” under RFRA, and that the “bill does not
expand, contract, or alter the ability of a claimant to obtain relief” consistent with
free exercise jurisprudence prior to Smith. Id.
52
15

1

Unknown Named Agents of Fed. Bureau of Narcotics, 403 U.S. 388 (1971), the

2

Supreme Court held that victims of Fourth Amendment violations could pursue

3

individual damages claims against officials, and it extended this principle in

4

Carlson v. Green, 446 U.S. 14, (1980), to permit individual damages claims for

5

constitutional violations unless the defendants could show that Congress

6

“provided an alternative remedy which it explicitly declared to be a substitute

7

for recovery directly under the Constitution,” or there are “special factors

8

counseling hesitation in the absence of affirmative action by Congress,” id. at 18‐

9

19 (emphasis omitted). It was therefore at least possible at the time that Congress

10

passed RFRA that an individual damages claim would have been available for a

11

free exercise violation. Given this potential, we cannot say that the Senate

12

Committee Report expressly intended to exclude such a remedy when it stated

13

that it did not intend to “expand” or “alter” claimants’ ability to obtain relief. S.

14

Rep. No. 103‐111, at 12.16

To be sure, the Supreme Court has subsequently shown “caution toward
extending Bivens remedies into any new context,” Corr. Servs. Corp. v. Malesko,
534 U.S. 61, 74 (2001), and “[s]ince Carlson in 1980, the Supreme Court has
declined to extend the Bivens remedy in any new direction at all,” Arar v.
Ashcroft, 585 F.3d 559, 571 (2d Cir. 2009). This trend, however, was not clearly
apparent at the time of RFRA’s passage because the Court had recognized Bivens
53

16

1

Furthermore, even if the Senate Committee Report could be read to limit

2

RFRA’s remedies to those explicitly authorized by the Supreme Court prior to

3

Smith, the approach of the House Committee Report is not necessarily so narrow.

4

Unlike the Senate Committee Report, which authorizes relief “consistent with the

5

Supreme Courts’[] free exercise jurisprudence,” S. Rep. No. 103‐111, at 12, the

6

House Committee Report authorizes relief so long as it is “consistent with free

7

exercise jurisprudence, including Supreme Court jurisprudence,” H.R. Rep. No.

8

103‐88, at 8. The House Committee Report therefore appears to have

9

contemplated providing a broad array of relief consistent not only with Supreme

10

Court jurisprudence but that of the lower courts as well. We thus find it highly

11

relevant that at the time of RFRA’s passage, several Courts of Appeals had held

12

that plaintiffs could pursue individual damages claims for violations of their free
claims in three instances and denied such claims in four. See id. at 571‐72.
Additionally, although the Supreme Court in Bush v. Lucas, 462 U.S. 367, 368
(1983), held that federal employees could not bring Bivens claims against their
superiors, the decision was narrow, and based on federal employees’ existing
access to “an elaborate remedial system” that protected their constitutional
rights, id. at 388. That remedial framework is not applicable here, because the
plaintiffs are not federal employees. Moreover, even if the trend away from
extending Bivens were obvious when RFRA was passed, it still falls short of the
Supreme Court’s clearly foreclosing an individual damages remedy for free
exercise violations. We therefore conclude that it would not be a basis for finding
the Franklin presumption inapplicable here.
54

1

exercise rights. See Caldwell v. Miller, 790 F.2d 589, 607‐608 (7th Cir. 1986); Jihaad v.

2

OʹBrien, 645 F.2d 556, 558 n. 1 (6th Cir. 1981); see also Paton v. La Prade, 524 F.2d

3

862, 870 (3d Cir. 1975) (holding that Bivens claims are broadly available for First

4

Amendment violations); Scott v. Rosenberg, 702 F.2d 1263, 1271 (9th Cir. 1983)

5

(assuming, without deciding, that the plaintiff could recover damages if his free

6

exercise rights had been violated).

7

Accordingly, we do not believe that the legislative history evinces a clear

8

and express indication that Congress intended to exclude individual damages

9

claims from the scope of RFRA’s available relief, and we therefore conclude that

10

the Franklin presumption is applicable.

11

VI. Qualified Immunity

12
13

Having held that RFRA authorizes a plaintiff to sue federal officers in their

14

individual capacities for money damages, we consider whether those officers

15

should be shielded by qualified immunity.

16

At the panel’s request, the parties submitted supplemental briefing

17

addressing two questions: (1) “whether, assuming arguendo that RFRA authorizes

18

suits against officers in their individual capacities, [Defendants] would be

19

entitled to qualified immunity,” and (2) “whether Ziglar v. Abbasi, No. 15‐1358,
55

1

2017 WL 2621317 (June 19, 2017), applies in any relevant way to this question or

2

the other questions presented in this appeal.” Order, Tanvir v. Tanzin, No. 16‐

3

1176 (2d Cir. 2017), Dkt. No. 83; see also Post‐Argument Ltr. Brs., Tanvir v. Tanzin,

4

No. 16‐1176 (2d Cir. 2017), Dkt Nos. 89‐90, 93‐94.

5

We are sensitive to the notion that qualified immunity should be resolved

6

“at the earliest possible stage in the litigation.” Hunter v. Bryant, 502 U.S. 224, 227

7

(1991). Indeed, we have, in some circumstances, “permitted the [qualified

8

immunity] defense to be successfully asserted in a Rule 12(b)(6) motion.”

9

McKenna v. Wright, 386 F.3d 432, 435 (2d Cir. 2004). Nevertheless, as a general

10

matter, “[i]t is our practice in this Circuit when a district court fails to address the

11

qualified immunity defense to remand for such a ruling.” Eng v. Coughlin, 858

12

F.2d 889, 895 (2d Cir. 1988) (citing Francis v. Coughlin, 849 F.2d 778, 780 (2d Cir.

13

1988)).

14

Here, the district court decision below did not address whether

15

Defendants were entitled to qualified immunity. Similarly, until the panel

16

prompted the parties at oral argument and in its post‐argument order, neither

17

side fully addressed or briefed the issue of qualified immunity on appeal. In the

18

absence of a more developed record, we decline to address in the first instance
56

1

whether the Defendants are entitled to qualified immunity. We remand to the

2

district court to make such determination in the first instance.

3
4
5

CONCLUSION

6
7
8

For the foregoing reasons, we reverse the judgment of the district court
and remand for further proceedings.

57

Case 16-1176, Document 133, 02/14/2019, 2496571, Page1 of 3

16‐1176
Tanvir v. Tanzin

United States Court of Appeals
FOR THE SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the fourteenth day of February, two
thousand nineteen.
PRESENT:
ROBERT A. KATZMANN,
Chief Judge,
DENNIS JACOBS,
JOSÉ A. CABRANES,
ROSEMARY S. POOLER,
PETER W. HALL,
DENNY CHIN,
RAYMOND J. LOHIER, JR.,
SUSAN L. CARNEY,
CHRISTOPHER F. DRONEY,
RICHARD J. SULLIVAN,
Circuit Judges.

MUHAMMAD TANVIR, JAMEEL ALGIBHAH,
NAVEED SHINWARI,
Plaintiffs‐Appellants,
v.

No. 16‐1176

FNU TANZIN, Special Agent, FBI; SANYA
GARCIA, Special Agent, FBI; JOHN LNU, Special
Agent, FBI; FRANCISCO ARTUSA, Special Agent,


Circuit Judge Debra Ann Livingston recused herself from these proceedings.

1

Case 16-1176, Document 133, 02/14/2019, 2496571, Page2 of 3

FBI; JOHN C. HARLEY III, Special Agent, FBI;
STEVEN LNU, Special Agent, FBI; MICHAEL
LNU, Special Agent, FBI; GREGG GROSSOEHMIG,
Special Agent, FBI; WEYSAN DUN, Special Agent
in Charge, FBI; JAMES C. LANGENBERG, Assistant
Special Agent in Charge, FBI; JOHN DOE #1, Special
Agent, FBI; JOHN DOE #2, Special Agent, FBI; JOHN
DOE #3, Special Agent, FBI; JOHN DOE #4, Special
Agent, FBI; JOHN DOE #5, Special Agent, FBI;
JOHN DOE #6, Special Agent, FBI,
Defendants‐Appellees.

RAMZI KASSEM (Naz Ahmad, on the
brief), CLEAR Project, Main Street Legal
Services, Inc., City University of New
York School of Law, Long Island City,
NY.

For Plaintiffs‐Appellants:

Jennifer R. Cowan, Erol Gulay, Sandy
Tomasik, Debevoise & Plimpton LLP,
New York, NY.
Shayana D. Kadidal, Baher Azmy,
Center for Constitutional Rights, New
York, NY.
For Defendants‐Appellees:

ELLEN BLAIN, Assistant United States
Attorney (Benjamin H. Torrance,
Assistant United States Attorney, on the
brief), for Geoffrey S. Berman, United
States Attorney for the Southern
District of New York, New York, NY.

2

Case 16-1176, Document 133, 02/14/2019, 2496571, Page3 of 3

Following disposition of this appeal on June 25, 2018, an active judge of the
Court requested a poll on whether to rehear the case en banc. A poll having been
conducted and there being no majority favoring en banc review, rehearing en banc
is hereby DENIED.
Rosemary S. Pooler, Circuit Judge, joined by Robert A. Katzmann, Chief
Judge, concurs by opinion in the denial of rehearing en banc.
Dennis Jacobs, Circuit Judge, joined by José A. Cabranes and Richard J.
Sullivan, Circuit Judges, dissents by opinion from the denial of rehearing en banc.
José A. Cabranes, Circuit Judge, joined by Dennis Jacobs and Richard J.
Sullivan, Circuit Judges, dissents by opinion from the denial of rehearing en banc.
FOR THE COURT:
CATHERINE O’HAGAN WOLFE, CLERK

3

Case 16-1176, Document 134, 02/14/2019, 2496573, Page1 of 5

ROBERT A. KATZMANN, Chief Judge, and ROSEMARY S. POOLER, Circuit
Judge, concurring in the denial of rehearing en banc:1
Our dissenting colleagues do their level best to disguise the panel’s
opinion as an extension of Bivens v. Six Unknown Named Agents of Federal Bureau
of Narcotics, 403 U.S. 388 (1971). They claim that despite the Supreme Court’s
recent decisions restraining Bivens actions, the panel’s opinion effectively dabbles
in the now‐forbidden practice of implying private rights of action. Dissent from
the Denial of Rehearing En Banc (Jacobs, J.), slip op. at 5; Dissent from the Denial
of Rehearing En Banc (Cabranes, J.), slip op. at 1‐2. But these arguments deny an
incontrovertible truth: the panel’s opinion does not imply a private right of
action. To the contrary, RFRA contains an express private right of action with an
express provision for “appropriate relief.” See 42 U.S.C. § 2000bb‐1(c).2 The panel
opinion interprets RFRA’s express private right of action to support a damages
Pursuant to Second Circuit En Banc Protocol 12, Judge Gerard E. Lynch, although a
member of the panel that decided this case, is a Senior Judge and thus may not report
his views on the petition for rehearing en banc.
1

2

RFRA’s private right of action in its entirety states:
A person whose religious exercise has been burdened in violation of this
section may assert that violation as a claim or defense in a judicial
proceeding and obtain appropriate relief against a government. Standing
to assert a claim or defense under this section shall be governed by the
general rules of standing under article III of the Constitution.

42 U.S.C. § 2000bb‐1(c).

Case 16-1176, Document 134, 02/14/2019, 2496573, Page2 of 5

remedy where appropriate—a conclusion based on principles of statutory
interpretation that Bivens and its progeny do not touch.
Separation of powers considerations compel the judiciary to exercise
“caution with respect to actions in the Bivens context, where [an] action is
implied to enforce the Constitution itself.” Ziglar v. Abbasi, 137 S. Ct. 1843, 1856
(2017). Undoubtedly, the Supreme Court’s hesitancy to apply Bivens to new
contexts reflect a concern for judicial absorption of legislative power: “[T]he
inquiry must concentrate on whether the Judiciary is well suited, absent
congressional action or instruction, to consider and weigh the costs and benefits
of allowing a damages action to proceed.” Id. at 1857‐58. The Court suggests that
Congress is typically the best‐suited institution to resolve the “host of
considerations that must be weighed and appraised” in deciding whether a
remedy for constitutional or statutory rights exists. Id. at 1857 (internal quotation
marks omitted).
But despite our dissenting colleagues’ protests, the Court’s reasoning in
Ziglar is inapplicable to the question of whether Congress’s provision in RFRA
for litigants to “obtain appropriate relief against a government,” 42 U.S.C. §
2000bb‐1(c), contemplates a damages remedy. Franklin v. Gwinnett Cty. Pub. Schs.,

2

Case 16-1176, Document 134, 02/14/2019, 2496573, Page3 of 5

503 U.S. 60, 65‐66 (1992) (“[T]he question of what remedies are available under a
statute that provides a private right of action is analytically distinct from the
issue of whether such a right exists in the first place.” (internal quotation marks
omitted)). In the context of an implied remedy, the Ziglar Court instructed that
the answer to this question is that Congress typically decides “whether to
provide for a damages remedy.” 137 S. Ct. at 1857. This truism recognizes that
the judiciary’s power to impose liability by creating a private right of action vis‐
à‐vis Congress’s silence is modest. See, e.g., Cort v. Ash, 422 U.S. 66, 78 (1975)
(defining four searching requirements for implying a private right of action). By
contrast, in the context of a private right of action, Congress has already spoken
to impose liability and thereby bestows the judiciary with greater power to effect
a remedy. E.g., Bell v. Hood, 327 U.S. 678, 684 (1946) (“[I]t is . . . well settled that
where legal rights have been invaded, and a federal statute provides for a
general right to sue for such invasion, federal courts may use any available
remedy to make good the wrong done.”). The role of the court in this case is
different because implying a right of action is a judicially constructed remedy,
whereas interpreting a statute to provide a damages remedy is a time‐honored

3

Case 16-1176, Document 134, 02/14/2019, 2496573, Page4 of 5

exercise of the judiciary’s power to grant relief where Congress has legislated
liability.
This makes sense. While it would upset the separation of powers for
federal courts “to award remedies when the Constitution or laws of the United
States do not support a cause of action,” if federal courts declined to recognize
remedies for express causes of action, it “would harm separation of powers
principles in another way, by giving judges the power to render inutile causes of
action authorized by Congress.” Franklin, 503 U.S. at 74. Thus, the opinion, rather
than narrowly skirting the Supreme Court’s Bivens jurisprudence (as the dissents
from rehearing darkly imply), recognizes the Court’s power where separation of
powers concerns are weakest.
It is therefore axiomatic that the judiciary’s interpretation of “appropriate
relief” as prescribed in an express right of action is not akin to a Bivens action.
Unlike a Bivens action, where the Court itself implies a cause of action, Tanvir
considers the scope of an express right of action with an express provision of
remedies from Congress. This distinction is critical, and no sleight of the law can
elide Bivens and the judiciary’s power to interpret statutes.

4

Case 16-1176, Document 134, 02/14/2019, 2496573, Page5 of 5

The opinion stands on its own to address the dissents’ remaining
arguments. We write separately merely to expose the dissents’ Bivens accusations
as a red herring.

5

Case 16-1176, Document 135, 02/14/2019, 2496575, Page1 of 11

DENNIS JACOBS, Circuit Judge, joined by JOSÉ A. CABRANES and RICHARD J.
SULLIVAN, Circuit Judges, dissenting from the denial of rehearing en banc:
Plaintiffs allege that they were placed on the national “No Fly List,”
though they posed no threat to aviation, in retaliation for their refusal to become
FBI informants reporting on fellow Muslims. The claim is that the retaliation
they suffered substantially burdened their exercise of religion, in violation of the
Religious Freedom Restoration Act (“RFRA”), because their refusal was
compelled by Muslim tenets.
The sufficiency of such a claim is not at issue on appeal; so the only issue is
whether RFRA affords a money‐damages remedy against federal officers sued in
their individual capacities. The panel opinion argues that: the statute permits
“appropriate relief against a government”; a government is defined to include “a
branch, department, agency, instrumentality, and official (or other person acting
under color of law)”; money damages is presumptively “appropriate relief”; and
therefore money damages is appropriate relief against individual officers.
Because the panel’s reasoning fails as a matter of law and logic and runs
counter to clear Supreme Court guidance on this subject, I would grant in banc
review and reverse the panel’s erroneous creation of a right to money damages
under RFRA. Indeed, the panel’s expansive conclusion could be viewed without
1

Case 16-1176, Document 135, 02/14/2019, 2496575, Page2 of 11

alarm only by people (judges and law clerks) who enjoy absolute immunity from
such suits.
I
RFRA states in relevant part that “[a] person whose religious exercise has
been burdened in violation of this section may assert that violation as a claim or
defense in a judicial proceeding and obtain appropriate relief against a
government.” 42 U.S.C. § 2000bb‐1(c). As to whether this statute affords a
money‐damages remedy against individual federal officers, precedent points the
way with graphic simplicity.
This Court has already decided the scope of an identical private right of
action in the Religious Land Use and Institutionalized Persons Act of 2000
(“RLUIPA”). RLUIPA and RFRA alike forbid substantial burdens on religious
exercise: RLUIPA applies to the states, while RFRA applies to the federal
government. We held that the phrase “appropriate relief against a government”
in RLUIPA does not create a private right of action against state officials sued in
their individual capacities. Washington v. Gonyea, 731 F.3d 143, 146 (2d Cir. 2013).
Washington is fully consistent with the Supreme Court’s ruling that RLUIPA does

2

Case 16-1176, Document 135, 02/14/2019, 2496575, Page3 of 11

not authorize private suits for money damages against the states themselves.
Sossamon v. Texas, 563 U.S. 277, 293 (2011).
The district court followed these precedents. The panel opinion labors to
distinguish them. To distinguish Washington and Sossamon, the panel opinion
emphasizes that they were informed by Congress’s Spending Clause powers and
by state sovereign immunity (respectively), considerations not present here. But
in Sossamon, the Supreme Court relied not on sovereign immunity alone, but on
the plain meaning of the text. The Court explained that the phrase “appropriate
relief” takes its meaning from “context.” Sossamon, 563 U.S. at 286. In RLUIPA
(as in RFRA) the context is clear: the full phrase is “appropriate relief against a
government.” As the Supreme Court explained, “[t]he context here‐‐where the
defendant is a sovereign‐‐suggests, if anything, that monetary damages are not
‘suitable’ or ‘proper.’” Id. Given that RFRA and RLUIPA attack the same wrong,
in the same way, in the same words, it is implausible that “appropriate relief
against a government” means something different in RFRA, and includes money
damages.
As the panel opinion concedes, “RLUIPA borrows . . . an express private
cause of action that is taken from RFRA”; “[a]s a result, courts commonly apply

3

Case 16-1176, Document 135, 02/14/2019, 2496575, Page4 of 11

RFRA case law to issues arising under RLUIPA and vice versa.” Op. 31 n.8
(internal quotation marks omitted). And the holding in Washington‐‐that
RLUIPA creates no private right of action against state officials in their
individual capacities‐‐was reached “as a matter of statutory interpretation.” 731
F.3d at 146.
The panel opinion deems it significant that RFRA’s definition of
“government” includes an “official (or other person acting under color of law).”
The use of language similar to that found in 42 U.S.C. § 1983, the panel argues,
suggests personal liability for money damages under RFRA. This argument is
self‐defeating. First, the inclusion of the word “official” in the definition of
“government” would be required simply to facilitate injunctive relief; it therefore
tells us nothing about damages. Moreover, Congress’s use of a definition similar
to that found in § 1983 only highlights the fact that Congress declined to enact
relief similar to that found in § 1983. RFRA contains nothing akin to § 1983’s
explicit endorsement of suits for money damages (“shall be liable to the party
injured in an action at law, suit in equity, or other proper proceedings for redress
. . .”). Surely this was not a careless oversight.

4

Case 16-1176, Document 135, 02/14/2019, 2496575, Page5 of 11

The panel opinion also fails to account adequately for the limiting term
“appropriate relief,” which “is open‐ended and ambiguous about what types of
relief it includes.” Sossamon, 563 U.S. at 286. “Far from clearly identifying money
damages, the word ‘appropriate’ is inherently context‐dependent,” Sossamon, 563
U.S. at 286, and we must therefore consider what forms of relief may be
appropriate against different persons defined in RFRA as components of
government.
The reading of RLUIPA is easily extended to the reading of RFRA. The
District of Columbia Circuit recognized in Webman v. Fed. Bureau of Prisons, 441
F.3d 1022, 1026 (D.C. Cir. 2006), that “appropriate relief against a government” in
RFRA does not include money damages against the federal government‐‐just as
the Supreme Court in Sossamon later read the same wording in RLUIPA to
foreclose a money damages award against a state. I would follow suit, and align
this case, which considers personal damages awards under RFRA, with our
Washington precedent on personal damages awards under RLUIPA.
As the district court opinion observed, “every other federal statute
identified by Plaintiffs as recognizing a personal capacity damages action against
federal officers . . . includes specific reference to the availability of damages.”

5

Case 16-1176, Document 135, 02/14/2019, 2496575, Page6 of 11

Tanvir v. Lynch, 128 F. Supp. 3d 756, 778 (S.D.N.Y. 2015) (subsequent history
omitted). The omission of any such language in RFRA is telling, and in my view
conclusive.
II
Proceeding backwards, the panel opinion observes that RFRA’s legislative
history does not evince “a clear and express indication that Congress intended to
exclude individual damages claims from the scope of RFRA’s available relief.”
Op. 55 (emphasis added). Maybe; but the absence of such an indication does not
support a positive inference. The opinion’s (lame) conclusion is that it was “at
least possible at the time that Congress passed RFRA that an individual damages
claim would have been available for a free exercise violation.” Op. 53.
If a statute imposes personal damages liability against individual federal
officers, one would expect that to be done explicitly, rather than by indirection,
hint, or negative pregnant. There is no such explicit wording in RFRA because
the manifest statutory purpose has nothing to do with such a remedy. The
Religious Freedom Restoration Act was enacted to restore religious freedom that
Congress believed had been curtailed by Employment Division v. Smith, 494 U.S.
872 (1990), which held that under the First Amendment no compelling

6

Case 16-1176, Document 135, 02/14/2019, 2496575, Page7 of 11

government interest is required to justify substantial burdens on religious
exercise imposed by laws of general application.
As the panel opinion concedes, RFRA’s legislative history was “absolutely
clear” that “the act does not expand, contract or alter the ability of a claimant to
obtain relief in a manner consistent with the Supreme Court’s free exercise
jurisprudence under the compelling governmental interest test prior to Smith.”
Op. 50 (internal quotation marks omitted). The panel opinion fails to draw the
obvious inference: in the Supreme Court’s free exercise jurisprudence pre‐Smith,
the Court had never held that damages against the government for First
Amendment violations were available‐‐let alone personal damages against
individual federal officers. That is unsurprising given the default principle that
“a waiver of the Government’s sovereign immunity will be strictly construed, in
terms of its scope, in favor of the sovereign.” Lane v. Pena, 518 U.S. 187, 192
(1996).
III
To support the idea that RFRA provides a personal damages remedy
against individual officers, the panel relies on Franklin v. Gwinnett County Public
Schools, 503 U.S. 60 (1992). Franklin, however, does not create a presumption in

7

Case 16-1176, Document 135, 02/14/2019, 2496575, Page8 of 11

favor of money damages; rather, it simply recognizes a presumption (in the
absence of contrary indication) that a private right of action is enforced by all
“appropriate” remedies. That of course simply begs the question. Indeed, RFRA
itself already speaks of “appropriate relief”; so Franklin provides no new
information. In other cases, of course, the Supreme Court has offered guidance
regarding whether money damages are generally considered appropriate relief
against governments and government officials. Its answer is no. See, e.g., Ziglar
v. Abbasi, 137 S. Ct. 1843, 1856 (2017); Sossamon, 563 U.S. at 286.
In any event, the Franklin presumption was created in the context of an
implied right of action “[w]ith no statutory text to interpret.” Sossamon, 563 U.S.
at 288. That presumption is held in Sossamon to be “irrelevant to construing the
scope of an express waiver of sovereign immunity.” Id. The waiver of sovereign
immunity in RFRA is of course “express.”
The panel opinion detects irony in a rule that may presume a broader set
of remedies in an implied right of action than in a right of action that is express.
But irony is dispelled when one considers that implied rights of action for
damages against individual federal officers‐‐i.e., Bivens actions‐‐are not in vogue;
they are tolerated in the few existing contexts, and may never be created in any

8

Case 16-1176, Document 135, 02/14/2019, 2496575, Page9 of 11

other context whatsoever. Corr. Servs. Corp. v. Malesko, 534 U.S. 61, 68 (2001)
(“[W]e have consistently refused to extend Bivens liability to any new context or
new category of defendants.”); see also Arar v. Ashcroft, 585 F.3d 559, 571 (2d Cir.
2009) (in banc).
The panel has done what the Supreme Court has forbidden: it has created
a new Bivens cause of action, albeit by another name and by other means. The
Supreme Court did not shut the Bivens door so that we could climb in a window.
The panel ignores the considerations that inform the Supreme Court’s refusal to
extend Bivens. A private right of action for money damages against individual
officers of “a government” entails “substantial social costs, including the risk that
fear of personal monetary liability and harassing litigation will unduly inhibit
officials in the discharge of their duties.” Anderson v. Creighton, 483 U.S. 635, 638
(1987). We must consider “the burdens on Government employees who are sued
personally,” and the “costs and consequences to the Government itself when the
tort and monetary liability mechanisms of the legal system are used to bring
about the proper formulation and implementation of public policies.” See Ziglar,
137 S. Ct. at 1858.

9

Case 16-1176, Document 135, 02/14/2019, 2496575, Page10 of 11

The remedy created by the panel opinion is considerably more inhibiting
than the personal damages remedy in the context of 42 U.S.C. § 1983, which is
mitigated by qualified immunity. The panel opinion mentions (without
deciding) that qualified immunity may be available as possible mitigation.
Mitigation of error is always encouraging, and I have no doubt that qualified
immunity does apply here. Indeed, I have difficulty imagining a scenario in
which its applicability would be more apparent: the defendants here are FBI
agents pursuing a national security investigation, and were never told that
Plaintiffs believed cooperating with an investigation “burdened their religious
beliefs.” Yet a court’s finding of qualified immunity is never a foregone
conclusion, and many courts‐‐including our own‐‐have occasionally failed to
apply it when appropriate. See, e.g., Iqbal v. Hasty, 490 F.3d 143, 153 (2d Cir.
2007). The panel’s remand on this issue sows doubt where there should be none.
With or without qualified immunity, such liability would result in federal
policy being made (or frozen) by the prospect of impact litigation. The safest
course for a government employee in doubt would be to avoid doing one’s job,
which is not a choice in need of encouragement.

10

Case 16-1176, Document 135, 02/14/2019, 2496575, Page11 of 11

*

*

*

I respectfully dissent from the denial of in banc review because the panel
opinion is quite wrong and actually dangerous.

11

Case 16-1176, Document 136, 02/14/2019, 2496576, Page1 of 3

JOSÉ A. CABRANES, Circuit Judge, joined by DENNIS JACOBS and RICHARD J.
SULLIVAN, Circuit Judges, dissenting from the denial of rehearing en banc:
I fully join Judge Jacobs’ thorough dissent, which does the heavy lifting on
the merits. I write separately simply to emphasize that the panel decision
represents a transparent attempt to evade, if not defy, the precedents of the
Supreme Court.
For nearly half a century, the Supreme Court has “consistently rejected
invitations” to extend the Bivens remedy to new contexts. Corr. Servs. Corp. v.
Malesko, 534 U.S. 61, 70 (2001). Yet twelve years ago, in Iqbal v. Hasty, 490 F.3d 143
(2d Cir. 2007), a panel of our Court entertained the extension of Bivens to several
such contexts, including violations of the Free Exercise clause. In Ashcroft v. Iqbal,
556 U.S. 662 (2009), the Supreme Court forcefully reversed, reminding us not to
“extend Bivens liability to any new context or new category of defendants”
including “an implied damages remedy under the Free Exercise Clause.” Id. at
675 (internal quotation marks omitted).
Nevertheless, four years ago, there was another attempt to evade the
Supreme Court’s clear instruction. In Turkmen v. Hasty, 789 F.3d 218 (2d Cir.
2015), a panel of our Court sought to extend the Bivens remedy to the
extraordinary case of officials implementing national security policy. A motion to
1

Case 16-1176, Document 136, 02/14/2019, 2496576, Page2 of 3

rehear the case en banc failed by vote of an evenly divided court (6‐6). See 808
F.3d 197 (2d Cir. 2015). Once again, however, the Supreme Court intervened,
reining in our Court’s misplaced enthusiasm for creating official liability ex nihilo.
See Ziglar v. Abbasi, 137 S. Ct. 1843 (2017).
In Ziglar, the Supreme Court not only reversed us, but patiently explained
why damages remedies against government officials are disfavored and should
not be recognized absent explicit congressional authorization: “Claims against
federal officials often create substantial costs, in the form of defense and
indemnification . . . time and administrative costs . . . resulting from the
discovery and trial process.” Id. at 1856. These costs, the Supreme Court
instructed, provide “sound reasons to think Congress might doubt the efficacy or
necessity of a damages remedy.” Id. at 1858. Thus “courts must refrain from
creating the remedy in order to respect the role of Congress.” Id.
It appears our Court is still incapable of learning this lesson. In the instant
case, however, we have developed still another rationalization for avoiding the
Supreme Court’s instruction. “We are not extending Bivens,” the panel in effect
insists. “We are simply presuming that Congress legislated a Bivens‐like
remedy—sub silentio—in enacting RFRA.”

2

Case 16-1176, Document 136, 02/14/2019, 2496576, Page3 of 3

This rationalization is as flawed as it is transparent. Insofar as this panel
suggests we may assume that Congress authorized such damages implicitly,
Ziglar reminds us that “Congress will be explicit if it intends to create a new
private cause of action” or “substantive legal liability,” particularly for
government officials. Id. at 1856‐57. Insofar as the panel suggests that Congress
incidentally legislated such a remedy—as part of its general intent to restore the
Free Exercise legal structure antedating Employment Division v. Smith, 494 U.S.
872 (1990)—Iqbal makes clear that damages are not, and never have been,
available for Free Exercise claims. 556 U.S. at 676.
In sum, RFRA reveals no Congressional intent to create a damages
remedy, and on no theory may we presume it.
When asked why he persisted in issuing decisions that the Supreme Court
would predictably overturn, a prominent judge of another circuit once explained,
“[t]hey can’t catch ’em all.”1 Such an attitude is not, and must not become, the
approach of our Circuit.

Linda Greenhouse, Dissenting Against the Supreme Court’s Rightward Shift, N.Y. TIMES,
April 12, 2018, https://www.nytimes.com/2018/04/12/opinion/supreme‐court‐right
‐shift.html.
1

3

